               AUDIT OF
   THE OFFICE OF JUSTICE PROGRAMS
    BUREAU OF JUSTICE ASSISTANCE
       EDWARD BYRNE MEMORIAL
JUSTICE ASSISTANCE GRANT AWARDED TO
  THE GREEN BAY POLICE DEPARTMENT
         GREEN BAY, WISCONSIN


      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

      Audit Report GR-50-13-001
             October 2012
              OFFICE OF JUSTICE PROGRAMS
             BUREAU OF JUSTICE ASSISTANCE
    EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANT
      AWARDED TO THE GREEN BAY POLICE DEPARTMENT
                GREEN BAY, WISCONSIN

                         EXECUTIVE SUMMARY

     The Office of the Inspector General, Audit Division, has completed an
audit of Office of Justice Programs (OJP), Bureau of Justice Assistance
(BJA), Edward Byrne Justice Assistance Grant (JAG) Program grant
number 2009-SB-B9-0711 in the amount of $477,188 awarded to the
Green Bay, Wisconsin, Police Department. The purpose of the grant was
for the Green Bay Police Department to purchase equipment and training
to expand its law enforcement abilities and assist in performing its duties
in the field. The Green Bay Police Department allocated $33,249 of the
$477,188 for use by the Brown County, Wisconsin, Sheriff’s Department.

     The JAG Program is the primary provider of federal criminal justice
funding to state and local jurisdictions. This particular grant was awarded
as part of the American Recovery and Reinvestment Act (Recovery Act),
which was a direct response to the economic crisis and had three
immediate goals: (1) create new jobs and save existing ones, (2) spur
economic activity and invest in long–term growth, and (3) foster
unprecedented levels of accountability and transparency in government
spending. One of the ways the Recovery Act intended to achieve those
goals was by making additional funds available for federal contracts,
grants, and loans.

     The Green Bay Police Department is located in Green Bay, Wisconsin.
The Department is currently comprised of three divisions: (1) Operations,
(2) Investigations, and (3) Support Services. The department is staffed
with 184 officers and serves a population of over 100,000 residents. The
Brown County Sheriff’s Department is comprised of five divisions:
(1) Investigative, (2) Jail, (3) Patrol, (4) Professional Standards, and
(5) Support Services. The department employs over 300 law enforcement
professionals and as of 2010, serves a population of almost 250,000,
which includes the city of Green Bay.

    The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel costs; (4) supplanting; (5) local
matching funds; (6) accountable property; (7) indirect costs; (8) program
income; (9) federal financial, progress, and Recovery Act reports;
(10) grant requirements; (11) program performance and
accomplishments; and (12) monitoring of sub-grantees and contractors.
We determined that local matching funds, indirect costs, program income,
and monitoring of contractors were not applicable to this grant.

    As of October 3, 2011, the grantee had drawn down $397,714 of the
$477,188 in grant funds. The grantee had recorded expenditures of
$420,925 in its grant accounting records. We examined both the
Green Bay Police Department’s and Brown County Sheriff’s Department’s
grant accounting records, required reports, and operating policies and
procedures. Our audit revealed the following:

    •   The Green Bay Police Department did not establish a separate
        account in its general ledger to properly account for Recovery Act
        funds, as required by the grant.

    •   The Green Bay Police Department used grant funds for an
        equipment item that was not approved by OJP. Therefore, we are
        questioning $9,297 in unallowable equipment costs.

    •   The Green Bay Police Department’s official accountable property
        listings did not contain grant-funded equipment items that should
        have been included and did not adequately identify equipment as
        purchased with federal funds, as required by the grant.

    •   The Green Bay Police Department’s required grant reports did not
        accurately reflect financial activity based upon the official
        accounting records, and two progress reports were submitted in
        an untimely manner.

    •   The Green Bay Police Department did not have an established
        system in place to monitor the sub-recipient’s grant activities,
        including a review of the Brown County Sheriff’s Department’s
        accounting system and procedures.

     Our report contains 5 recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report.




                                    - ii -
                               TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
   Background .......................................................................... 2
   Our Audit Approach ............................................................... 3

FINDINGS AND RECOMMENDATIONS........................................ 5
   Accounting and Internal Controls ............................................ 5
   Drawdowns .......................................................................... 7
   Supplanting.......................................................................... 8
   Grant Expenditures ............................................................... 8
   Accountable Property ............................................................ 9
   Grant Reporting ...................................................................10
   Compliance with Grant Requirements .....................................13
   Program Performance and Accomplishments ...........................13
   Monitoring Sub-grantees.......................................................14
   View of Responsible Officials .................................................14
   Recommendations ...............................................................15

APPENDIX I:          OBJECTIVE, SCOPE, AND METHODOLOGY........ 16

APPENDIX II:         SCHEDULE OF DOLLAR-RELATED FINDINGS ... 18

APPENDIX III: AUDITEE RESPONSE ...................................... 19

APPENDIX IV:          OFFICE OF JUSTICE PROGRAMS RESPONSE ... 22

APPENDIX V:          OFFICE OF THE INSPECTOR GENERAL
                        ANALYSIS AND SUMMARY OF ACTIONS
                        NECESSARY TO CLOSE THE REPORT ......... 25
                                INTRODUCTION

      The Department of Justice (DOJ), Office of the Inspector General,
 Audit Division, has completed an audit of an Edward Byrne Memorial
 Justice Assistance Recovery Act grant awarded by the U.S. Department of
 Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance
 (BJA) to the Green Bay, Wisconsin, Police Department. As shown in the
 following table, the Green Bay Police Department was awarded $477,188
 under grant number 2009-SB-B9-0711 to purchase equipment and
 training to expand its abilities as a law enforcement agency. A portion of
 the grant funds ($33,249 of the $477,188) was allocated to the Brown
 County, Wisconsin, Sheriff’s Department.

   TABLE 1 – OFFICE OF JUSTICE PROGRAMS GRANT AWARDED TO
               THE GREEN BAY POLICE DEPARTMENT
                        AWARD
                                    AWARD
    GRANT AWARD         START                 AWARD AMOUNT
                                   END DATE
                        DATE 1

   2009-SB-B9-0711           03/01/2009         02/28/2013             $477,188

                                                       Total:         $477,188
Source: OJP

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel costs; (4) supplanting;
(5) local matching funds; (6) accountable property; (7) indirect costs;
(8) program income; (9) federal financial, progress, and Recovery Act
reports; (10) grant requirements; (11) program performance and
accomplishments; and (12) monitoring of sub-grantees and contractors.
We determined that local matching funds, indirect costs, program income,
and monitoring of contractors were not applicable to this grant.




      1
        The award documentation indicates that the project start date was March 1, 2009.
However, the Green Bay Police Department did not accept the award until June 30, 2009.
Background

     Since 1984, OJP has provided federal leadership in developing the
nation's capacity to prevent and control crime, improve the criminal and
juvenile justice systems, increase knowledge about crime and related
issues, and assist crime victims. OJP utilizes several grant programs to
award funding to state and local jurisdictions. The Edward Byrne
Memorial Justice Assistance Grant (JAG) Program is one of those
programs and is the primary provider of federal criminal justice funding to
state and local jurisdictions. The JAG Program provides states and units
of local governments with critical funding necessary to support a range of
program areas, including law enforcement; prosecution and court
programs; prevention and education programs; corrections and
community corrections; drug treatment and enforcement; crime victim
and witness initiatives; and planning, evaluation, and technology
improvement programs.

     On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by
supporting technological advances in science and health; (4) invest in
transportation, environmental protection, and other infrastructure that will
provide long-term economic benefits; and (5) stabilize state and local
government budgets in order to minimize and avoid reductions in
essential services and counterproductive state and local tax increases.
Through Recovery Act JAG funding, DOJ focused support on various
components of the criminal justice system. This funding could be used to
address crime by providing services directly to individuals and
communities and by improving the effectiveness and efficiency of criminal
justice systems, processes, and procedures.

     The Green Bay Police Department is located in Green Bay, Wisconsin.
The department is currently comprised of three divisions: (1) Operations,
(2) Investigations, and (3) Support Services. As of 2010, the department
was staffed with 184 sworn officers and served a population of over
100,000 residents.

     The Green Bay Police Department passed a portion of the grant funds
on to the Brown County Sheriff's Department. The Brown County Sheriff’s
Department is comprised of five divisions: (1) Investigative, (2) Jail,
(3) Patrol, (4) Professional Standards, and (5) Support Services. As of
2010, the department employed over 300 law enforcement professionals


                                    -2-
 and served a population of almost 250,000 residents, which includes the
 city of Green Bay.

Our Audit Approach

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide, the
Code of Federal Regulations, Office of Management and Budget (OMB)
Circulars, and the grant award documents. We tested the Green Bay Police
Department’s:

  •   Accounting and Internal Controls to determine whether the
      grantee had sufficient accounting and internal controls in place for the
      processing and payment of funds and controls were adequate to
      safeguard grant funds and ensure compliance with the terms and
      conditions of the grant;

  •   Grant Drawdowns to determine whether grant drawdowns were
      adequately supported and if the grantee was managing grant receipts
      in accordance with federal requirements;

  • Grant Expenditures to determine the accuracy and allowability of
    costs charged to the grant;

  • Accountable Property to determine if property was correctly
    accounted for and used in accordance with the terms and conditions of
    the grant;

  • Supplanting to determine whether the grantee supplanted local funds
    with federal funds;

  • Financial Status Reports and Progress Reports to determine
    whether the required reports were submitted on time and accurately
    reflected grant activity;

  • Accomplishment of Grant Requirements and Objectives to
    determine if the grantee met or is capable of meeting the grant’s
    objectives and whether the grantee collected data and developed
    performance measures to assess accomplishment of the intended
    objectives; and




                                     -3-
  • Monitoring of Sub-grantees to determine if the grantee adequately
    monitored the sub-grantee’s performance to ensure the sub-grantee
    adhered to the terms and conditions of the grant.

      We also performed limited work and confirmed that the Green Bay
Police Department was not required to contribute any local matching funds,
did not receive reimbursement for indirect costs, and did not generate any
program income. Therefore, we did not perform testing in these areas.




                                   -4-
              FINDINGS AND RECOMMENDATIONS

      We found that the Green Bay Police Department did not
      separately account for the Recovery Act funds, as required by
      the grant, and we identified $9,297 in questioned costs for the
      purchase of unapproved equipment. We also found that the
      grantee’s official accountable property listings did not contain
      grant-funded equipment items that should have been included
      and did not adequately identify equipment as purchased with
      federal funds, as required by the grant. Further, we noted
      weaknesses in the Green Bay Police Department’s processes for
      reflecting financial activity in required reports, and that two
      progress reports were submitted in an untimely manner. In
      addition, the department did not have an established, written
      system in place to monitor the sub-grantee's grant activities,
      including a review of the Brown County Sheriff’s Department’s
      accounting system and procedures.

       We performed audit work at the Green Bay Police Department and the
Brown County Sheriff’s Department located in Green Bay, Wisconsin, where
we obtained an understanding of the accounting system and reviewed a
sample of grant expenditures. We reviewed the criteria governing grant
activities, including the 2008 and 2009 OJP Financial Guides, relevant OMB
Circulars, and the Code of Federal Regulations. In addition, we reviewed
grant documents, including the application, award, and budgets, as well as
the required financial, progress, and Recovery Act reports. We also
interviewed key personnel at both the Green Bay Police Department and the
Brown County Sheriff’s Department.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should provide controls over funds and other resources to assure the
expenditure of funds and use of property conform to any general or special
conditions, ensure the optimal use of funds, and meets the prescribed
requirements for periodic financial reporting of operations. The accounting
system should also ensure that grant funds are not comingled with funds
from other federal agencies.

      We interviewed key personnel at the Green Bay Police Department
and the city of Green Bay, including the grant program manager and the
Assistant Chief Financial Officer, regarding the Green Bay Police


                                    -5-
Department’s financial management system, record keeping practices, and
methods for ensuring adherence to the terms and conditions of the grant.
We also reviewed the Green Bay Police Department’s policies, procedures,
and accounting records to assess its risk of non-compliance with laws,
regulations, guidelines, and terms and conditions of the grant.

      We determined that the Green Bay Police Department did not maintain
a separate account for the Recovery Act funds, as required by the grant.
The grantee stated that the Green Bay Police Department had decided to
have one ledger account for all JAG funds it received. After explaining this
grant requirement, the grantee stated that the Green Bay Police Department
would create a separate account in its general ledger for the Recovery Act
funds, and the grantee provided evidence that this action had been
completed.

Single Audit

       According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a single audit
conducted. The city of Green Bay reported that its expenditures of federal
funds in fiscal year (FY) 2010 totaled $7,688,799, and therefore, the city of
Green Bay was required to have a single audit performed. 2 We reviewed the
city of Green Bay’s report for FY 2010, which encompassed the Green Bay
Police Department, and found that the report did not disclose any
weaknesses, noncompliance issues, or cross-cutting findings related to grant
management. 3

      According to Brown County, its expenditures of federal funds in
FY 2010 totaled $42,644,514. 4 As a result, Brown County was also
required to have a single audit performed. We reviewed the Brown County
report for FY 2010, which included the Brown County Sheriff’s
Department. 5 The report did not identify any weaknesses, noncompliance
issues, or cross-cutting findings related to grant management.




       2
           The city of Green Bay’s fiscal year is from January 1 to December 31.
       3
          At the time of our audit, the FY 2010 Single Audit Report was the most current
available.
       4
           Brown County’s fiscal year is from January 1 to December 31.
       5
          At the time of our audit, the FY 2010 Single Audit Report was the most current
available.


                                             -6-
Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a
system of accounting and internal controls that adequately identifies and
classifies grant costs. The system must include controls to ensure that
funds and other resources are used optimally and expenditures of funds are
in conformance with the general and special conditions applicable to the
recipient. Further, the OJP Financial Guide states that grantees should
establish and maintain program accounts that will enable, on an individual
basis, the separate identification and accounting of the receipt and
disposition of all funds and the application of all funds to each budget
category included within the approved award.

      We did not test the overall financial management system for the
Green Bay Police Department as a whole, but conducted a limited review
and performed testing in areas related to the JAG award. We also
interviewed key personnel to further assess risk. Based upon our review,
we found that the Green Bay Police Department’s internal control
environment includes adequate separation of duties and limited access to
the accounting system.

Drawdowns

     We reviewed the Green Bay Police Department’s process for
requesting drawdowns from OJP for its grant-related costs. The grant
program manager stated that drawdowns were based on actual
expenditures. However, the grant program manager used a separate
spreadsheet to track grant expenditures and, in turn, to submit
reimbursement requests rather than using the official accounting records.

      As of October 3, 2011, the Green Bay Police Department had drawn
down funds totaling $397,714 on four separate occasions. We compared
the grant expenditures as reflected in the official accounting records to the
four drawdown amounts. We determined that only one of the drawdown
amounts agreed with the amount of expenditures reflected in the
accounting records. The other three drawdown amounts differed from the
amount of expenditures reflected in the accounting records, which were
generally a result of short timing differences between the dates that
invoices were received and recorded in the grant manager’s spreadsheet
and the dates that payments were executed and recorded in the official
accounting records. From a cumulative perspective, we found that the
grant expenditures according to the official accounting records matched the
drawdown amounts for the last two drawdown periods.



                                     -7-
Supplanting

       According to OJP, federal funds must be used to supplement existing
state and local funds for program activities and must not replace those funds
that have been appropriated for the same purpose. We reviewed the
Green Bay Police Department’s budgets for FYs 2009 and 2010 and did not
find any indications that the Green Bay Police Department was using grant
funds to supplant local funding.

Grant Expenditures

       The OJP Financial Guide serves as a primary manual to assist
grantees in fulfilling their fiduciary responsibility to safeguard grant funds
and ensure funds are used for the purposes for which they were awarded.
It also services as a day-to-day management tool for award recipients in
administering grant programs.

      To determine the accuracy and allowability of costs charged to the
grant, we reviewed a sample of expenditures incurred by the Green Bay
Police Department and by the Brown County Sheriff’s Department. As
mentioned, the Green Bay Police Department passed through $33,249 of
the award to the Brown County Sheriff’s Department.

      According to the Green Bay Police Department’s records, its total
grant-related expenditures as of October 3, 2011, were $420,925, and the
Green Bay Police Department had been reimbursed for $364,465.6 We
tested 20 Green Bay Police Department grant transactions totaling
$342,684. In addition, according to the Brown County Sheriff’s
Department’s records, its total grant-related expenditures as of October 3,
2011, were $33,289, and the Brown County Sheriff’s Department had been
reimbursed $33,249. We tested 15 Brown County Sheriff’s Department
grant transactions totaling $33,259. In total, we reviewed $375,943.

      In general, we determined that the Green Bay Police Department’s and
Brown County Sheriff’s Department’s transactions were properly authorized,
accurately classified and recorded in the general ledger, and adequately
supported. However, we did identify weaknesses with the Brown County
Sheriff’s Department’s supporting documentation, which is discussed in
greater detail in the Monitoring Sub-grantees section of the report.


      6
         As of October 3, 2011, the Green Bay Police Department’s grant expenditures
incurred exceeded the amount reimbursed by $56,460. The difference existed because the
Green Bay Police Department had not yet submitted a reimbursement request for those grant
expenditures.


                                          -8-
      In addition, we identified that the Brown County Sheriff’s Department
used $9,297 in grant funds to purchase equipment that was not listed as an
approved equipment item in the grant application. At the time the grant
was awarded, the Brown County Sheriff’s Department stated that it would
use $9,300 in grant funds to purchase equipment that would enable the
department to use one of its vehicles to transport prisoners. The
Brown County Sheriff’s Department purchased this equipment but later
returned the equipment because it was ineffective. The Brown County
Sheriff’s Department, in turn, used the $9,297 to purchase nine tasers. 7
Although the Brown County Sheriff’s Department originally indicated that it
would purchase four tasers, it did not request approval from OJP to purchase
an additional nine tasers instead of the prisoner transport equipment for
which it had been approved. The Brown County Sheriff’s Department did not
believe it needed OJP approval for this change because it was within the
10-percent variance of the grant amount. However, the 10-percent rule
does not apply to this grant. In addition, the OJP Financial Guide requires
grantees to request OJP approval for changes in project scope. Considering
that the Brown County Sheriff’s Department’s plan to retrofit a vehicle for
prisoner transportation represented approximately 28 percent of its planned
expenditures and activities, we believe that this change was significant and
required OJP approval. Therefore, we are questioning the $9,297 as
unallowable costs.

Accountable Property

      According to the OJP Financial Guide, property records must be
maintained for equipment acquired under an award. Among other items, the
property records must indicate a description of the property, the serial
number or other identification number, and the source of the property,
including the award number.

       The Green Bay Police Department and Brown County Sheriff’s
Department used the majority of grant funds to purchase equipment. The
city of Green Bay maintains a fixed asset list with a threshold of $5,000. We
reviewed the official fixed asset list and found that it did not contain the two
grant-related equipment items that were required to be on the list. Because
these items were not listed, we were unable to determine if the funding
source of the equipment was properly identified as grant-funded. According
to an official from the city of Green Bay, these equipment items were not
listed on the fixed asset list because the items were credit card purchases
and the city’s financial software does not allow such purchases to be
       7
         As noted in the award documentation, the Brown County Sheriff’s Department
intended to use the grant funds to purchase four tasers. In total, the Brown County Sheriff’s
Department used grant funds to purchase 13 tasers.


                                            -9-
reflected within the fixed asset module of the software. This official stated
that the city is in the beginning stages of obtaining new financial software
that will correct this problem.

       In addition to the official fixed asset list for the city of Green Bay, the
Green Bay Police Department maintains internal inventory listings. We
reviewed the internal inventory listings and found that it did not indicate the
source of the equipment items. After discussing this requirement with the
grantee, the Green Bay Police Department revised its internal property
listing to include this information and stated that all future equipment
purchased with grant funds will be indicated as being grant funded on the
property listing.

      We also physically verified 13 equipment items totaling $121,272. We
confirmed that these equipment items existed and were being used as
intended by the Green Bay Police Department and Brown County Sheriff’s
Department.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Federal Financial Reports (FFR) provide
information on monies spent and the unobligated amounts remaining in the
grant. Program progress reports provide information on the status of grant-
funded activities and other pertinent information. In addition, because the
grant involves the awarding of Recovery Act funds, the grantee is also
required to submit Recovery Act reports and Performance Measurement Tool
(PMT) reports. PMT reports describe the status of the funds and the project,
compare actual accomplishments to the objectives, and report other
pertinent information.

      According to the grantee, the Green Bay Police Department submits all
required reports for the grant and includes all necessary sub-grantee
information in the reports.

Federal Financial Reports

      According to the OJP Financial Guide, prior to October 1, 2009, Federal
Status Reports (FSR) were to be submitted within 45 days of the end of the
calendar quarter. Beginning with the report period October 2009 through
December 2009, grantees are required to submit quarterly Federal Financial
Reports (FFR) within 30 days of the end of the calendar quarter. 8 Funds or

      8
          For consistency purposes, we use the term “FFR” to refer to both types of reports.


                                            - 10 -
future awards may be withheld if reports are not submitted or if reports are
submitted late. We reviewed all 10 of the FFRs submitted by the Green Bay
Police Department as of October 3, 2011. In general, the Green Bay Police
Department submitted all reports in a timely manner.

      We also compared the grant-related expenditures reflected on the
FFRs to the Green Bay Police Department’s accounting records. We found
that the FFRs did not accurately reflect grant-related expenditures as
recorded in the official accounting records. Instead, the grantee relied
upon copies of the grant-related invoices that were maintained in a
separate folder and computed the grant-related expenditures from those
invoices when completing the FFRs. As shown in the following table, this
process, similar to the one used to request grant drawdowns, did not
provide results consistent with the grant-related expenditures reflected in
the official accounting records.

          TABLE 2 – ACCURACY OF FEDERAL FINANCIAL REPORTS
                                                   EXPENSES PER
    REPORT      FFR PERIOD       EXPENSES PER
                                                      GENERAL           DIFFERENCE
    NUMBER       END DATE             FFR
                                                      LEDGER
       1        03/31/2009                   $0                $0                 $0
       2        06/30/2009                    0                 0                  0
       3        09/30/2009              145,167           134,543           (10,624)
       4        12/31/2009              149,921            43,626          (106,295)
       5        03/31/2010               48,588           140,789             92,201
       6        06/30/2010                    0            24,719             24,719
       7        09/30/2010               35,431            35,431                  0
       8        12/31/2010               18,607                 0           (18,607)
       9        03/31/2011                    0            32,042             32,042
      10        06/30/2011                    0            37,880             37,880
             Total                    $397,714          $449,030            $51,316
    Source: OJP and Green Bay Police Department’s accounting records.

Program Progress Reports

      According to the award documentation, the grantee is required to
submit annual progress reports no later than November 29. 9 We reviewed
the two progress reports that were required to be submitted as of
October 3, 2011, and determined that both reports were not submitted by
OJP’s established deadline. The first progress report was submitted
73 days late, and the second progress report was submitted 53 days late.
OJP withheld grant funds until the reports were submitted.


      9
        These reports cover the federal fiscal year, which runs from October 1 through
September 30.


                                        - 11 -
      In addition, the grantee was required to provide performance
measure data in its progress reports, and one of those performance
measures pertained to financial activities. Similar to our review of grant
expenditures reported in the FFRs, we determined that the progress reports
did not accurately reflect the financial activity of the grant as recorded in
the accounting records.

Performance Measurement Tool Reports

       According to reporting requirements for Recovery Act grants, the
grantee is required to submit quarterly Performance Measurement Tool
(PMT) reports. According to OJP, PMT reports are to be submitted 30 days
after the quarter ends. We reviewed all of the PMT reports submitted as of
October 3, 2011, to determine if the reports were submitted on time and
accurately reflected grant financial activity. Because the reports did not
contain the date on which they were submitted to OJP, we contacted OJP,
and OJP informed us the dates on which these reports were created. Based
upon the information provided by OJP, we determined that the reports were
created within OJP’s required timeframe.

      As with the FFRs and progress reports, the PMT reports did not
accurately reflect grant expenditures as recorded in the Green Bay Police
Department’s official accounting records.

Recovery Act Reports

      According to the award documentation, the grantee is required to
submit Recovery Act Reports within 10 days after the quarter ends. At the
time of fieldwork, the Green Bay Police Department was required to submit
seven Recovery Act Reports. We reviewed all seven reports and determined
that six of the seven reports were generally submitted in a timely manner. 10
The remaining report was submitted 12 days late.

      We also reviewed the Recovery Act Reports and compared the grant
expenses reported to the official accounting records. We determined the
reports did not accurately reflect grant-related expenditures as shown in
Table 3.




       10
          We found that five of the reports were not submitted within the required timeframe.
However, the due dates of these reports fell on a weekend, and the reports were submitted
on the next business day.


                                           - 12 -
            TABLE 3 – ACCURACY OF RECOVERY ACT REPORTS
                RECOVERY ACT       EXPENSES PER        EXPENSES PER
    REPORT
                 PERIOD END        RECOVERY ACT           GENERAL          DIFFERENCE
    NUMBER
                    DATE             REPORT 11            LEDGER
       1          12/31/2009              $173,318           $178,169           ($4,851)
       2          03/31/2010                48,588            140,789           (92,201)
       3          06/30/2010               121,770             24,719             97,051
       4          09/30/2010                     0             35,431           (35,431)
       5          12/31/2010                     0                  0                  0
       6          03/31/2011                54,038             32,042             21,996
       7          06/30/2011                     0             37,880           (37,880)
               Total                     $397,714           $449,030          ($51,316)
    Source: OJP and Green Bay Police Department’s accounting records.

      The Recovery Act Reports also require the grantee to report on sub-
grantee activities. Although a portion of the grant was sub-awarded to the
Brown County Sheriff’s Department, the Green Bay Police Department did
not complete this section of the reports. The Brown County Sheriff’s
Department had incurred grant-related expenses, which were reimbursed by
the Green Bay Police Department, during the second and sixth Recovery Act
Report periods. However, these grant-related expenses were not reflected
in the applicable Recovery Act Reports.

       We discussed the inaccurate reporting of financial activity in the
above-mentioned reports with the grantee. The grantee acknowledged the
differences we identified.

Compliance with Grant Requirements

      We reviewed the grant requirements and identified several key
requirements, such as the grantee’s agreement to: (1) submit quarterly
Recovery Act Reports, (2) ensure Recovery Act funds are not commingled
with funds from any other source, and (3) not use grant funds to supplant
state or local funds. The quarterly Recovery Act reports, the commingling of
Recovery Act funds, and the supplanting requirements were addressed
previously in the report.

Program Performance and Accomplishments

     According to the grant application, the objectives of the grant were to
purchase equipment, such as video cameras, patrol car computers, tasers,

       11
          The grantee recorded the cumulative expenses on each quarter’s report instead of
only capturing the expenses incurred during that particular quarter. For our report purposes,
we computed what the grantee’s reported expenses were for each quarter by subtracting the
current report’s cumulative amount from the preceding report’s cumulative amount.


                                           - 13 -
and a disaster recovery server, and provide training to staff for the new
equipment purchased. To evaluate program performance, we interviewed
Green Bay Police Department and Brown County Sheriff’s Department
officials, as well as observed the use of grant-purchased equipment. We
also obtained documentation to support the grant-funded training. We
believe the grantee and sub-grantee are accomplishing the grant’s
objectives.

Monitoring Sub-grantees

      According to the OJP Financial Guide, grantees are responsible for
ensuring that sub-grantees have an adequate accounting system. The OJP
Financial Guide also states that grantees should be familiar with and
periodically monitor their sub-grantees’ financial systems, operations,
records, and procedures.

      The Green Bay Police Department awarded a portion of the grant funds
to the Brown County Sheriff’s Department. According to the grant program
manager, the Green Bay Police Department monitors the Brown County
Sheriff’s Department through the sub-grantee’s reimbursement requests.
The Brown County Sheriff’s Department must submit supporting
documentation for its grant-related expenditures prior to reimbursement.
However, we found that the grantee does not have an established, formal
system in place to monitor the sub-grantee's grant activities, including a
review of the Brown County Sheriff’s Department’s accounting system and
procedures. During our review of the Brown County Sheriff’s Department’s
financial grant activity, we identified weaknesses in the sub-grantee’s
procurement procedures. For example, we found the Brown County Sheriff’s
Department’s supporting documentation for its grant-related purchases did
not contain the proper authorization for purchase and acknowledgment for
the receipt of equipment. We believe that the Green Bay Police Department
should develop formal procedures for monitoring its sub-grantees.

View of Responsible Officials

      We discussed the results of our review with officials at the Green Bay
Police Department and the Brown County Sheriff’s Department throughout
the audit and at a formal exit conference. Their comments on specific issues
have been included in the appropriate sections of the report.




                                   - 14 -
Recommendations

We recommend that OJP:

1.   Remedy the $9,297 in unallowable expenditures related to the
     purchase of equipment items not approved by OJP.

2.   Ensure the Green Bay Police Department complies with grant
     requirements that require assets purchased with grant funds to be
     labeled as such in the official accountable property list, and ensure the
     department’s official accountable property list contains all grant-
     funded equipment items that should be included.

3.   Ensure the Green Bay Police Department implements procedures to
     ensure required reports reflect grant activity based upon the official
     accounting records and submits revised reports that accurately reflect
     grant-related expenditures, including the sub-grantee’s expenses, as
     recorded in its official accounting system.

4.   Ensure the Green Bay Police Department implements procedures to
     ensure required progress reports are submitted in a timely manner.

5.   Ensure the Green Bay Police Department develops procedures for
     monitoring and overseeing sub-grantees’ grant activities.




                                   - 15 -
                                                                APPENDIX I


            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards and included such tests as were
considered necessary to accomplish our objectives. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our
audit objectives.

       Our audit concentrated on, but was not limited to, the inception of the
grant on March 1, 2009, through October 3, 2011. This was an audit of the
OJP, Byrne Recovery Act JAG grant number 2009-SB-B9-0711, for which the
Green Bay Police Department was awarded $477,188. In conducting our
audit, we reviewed FFRs, progress reports, Recovery Act Reports, and PMT
reports, as well as performed sample testing of grant expenditures. Our
testing was conducted by judgmentally selecting a sample of expenditures,
along with a review of internal controls and procedures for the grant that we
audited. A judgmental sampling design was applied to obtain broad
exposure to numerous facets of the grant reviewed, such as dollar amounts,
expenditure category, or risk. This non-statistical sample design does not
allow for projection of the test results to all grant expenditures or internal
controls and procedures. In total, the grantee had drawn down $397,714
and expended $454,214 as of October 3, 2011. We tested 35 transactions
totaling $375,943.

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide and
the award documents. We reviewed the Green Bay Police Department’s
grant activities and performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) grant expenditures, including personnel
costs; (4) supplanting; (5) local matching funds; (6) property
management; (7) indirect costs; (8) program income; (9) federal financial,
progress, and Recovery Act Reports; (10) grant requirements;
(11) program performance and accomplishments; and (12) monitoring of
sub-grantees and contractors. We determined that local matching funds,


                                    - 16 -
indirect costs, program income, and monitoring of contractors were not
applicable to this grant.
      We performed limited testing of source documents to assess the
timeliness and accuracy of required reports, reimbursement requests, and
expenditures; evaluated performance to grant objectives; and reviewed the
grant-related internal controls over the financial management system. We
tested invoices associated with transactions shown in the Green Bay Police
Department’s general ledger as of September 30, 2011. However, we did
not test the reliability of the financial management system as a whole and
reliance on computer-based data was not significant to our objectives.




                                  - 17 -
                                                                          APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS



                                                               AMOUNT          PAGE
    QUESTIONED COSTS:


         Unallowable Expenditures                               $9,297            9


    TOTAL NET DOLLAR-RELATED FINDINGS                           $9,297




Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual
requirements; are not supported by adequate documentation at the time of the audit; or
are unnecessary or unreasonable.




                                          - 18 -
                                                                                              APPENDIX III



                                   AUDITEE RESPONSE





       Department of Police                                                              Thomas J. Molitor
                                                                                            Chief of Police

September I I, 20 I 2

Carol S. Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
500 West Mad ison Street, Suite I 12 1
Chicago, IL 6066 I

Dear Ms. Taraszka:

The fo llowing document is the Green Bay Police Department's response to the audit report of ARRA JAG grant
2009-SB-B9-071 I dated August 23, 20 12 performed by the USDOJ/OIG Chicago Regiona l Audit Office which
contains five recommendations. I have been in contact with my predecessor Chief James Arts who briefed me
regarding the audit process. After receiving the information he shared with me, I would be remiss if I didn't
recogni ze the courtesy, integrity, respect and professionalism shown by Assistant Regional Audit Manager
Todd Anderson and Program Analyst James Morrissey of the Chicago Regional Audit Office during the whole
audit process which was nearly one year long. We respect the fmdings of the audit and would like to share our
thoughts and remedies to be included in the final audit report.


Green Bay Police Depa rtment response to Audit Recommendations


    I. Remedy the $9,297 in unallowable ex penditu res related to the purchase of equipment items not
       approved by OJP.

       The Green Bay Police Department concurs with this finding.

       Remedy: The Green Bay Police Department along with the Brown County Sheriffs Department have
       been the fortunate recipient of JAG grant funding since 2007. As identified in the audit report, we
       operated on the 10% variance ru le which was allowed in all previous awarded JAG grants. The Brown
       County Sheriffs Department budgeted $9,300 budgeted to purchase a prisoner transport van cell. The
       BCSD did purchase the cell , but later returned it because it was ineffective. They in turn contacted the
       GBPD to request using the $9,300 to increase the quantity oftasers purchased from 4 to 13. The GBPD
       approved this request based on the previous practice of the 10% variance.


                307 South Adams Street .:. Green Bay, WI. 54301-4582 .:. (920) 448 3200 .:. Fax (920) 448 3248
                                         World Wide Web http://www.ci.green·bay.wi.usI




                                                         - 19 ­
   Due the fact that the budget adjustment fell within the previously authorized 10% variance amount
   guidelines authorized in previously awarded JAG grants, and that the BCSD was requesting re­
   allocation of the S9.300 to increase the quantity ofa piece ofequipmenl already authorized for purchase
   with Ihe ARRA JAG, the GBPD felt this would have been an authorized purchase. Being that the
   ARRA JAG grant period doesn't end until Febnmry 28, 20 13, we respectfu lly request thc opportunity to
   submit a Budget Adjustment GAN re-a llocating the $9,300 budgeted for the prisoner van transpo rt cell
   to cover the cost of the 9 additional tasers purehased by the BCSD to remedy this oversight.

2. E nsure th e G r ee n Day Policc Dcpartmcnt com plics with grant rctluircnlents th a t r equire assets
   purchased with gra nt funds to be labeled as such in th e official accou ntable properly list, a nd
   ensure th e d epartmen t's official acco untab le propcrty list conta ins a ll gra nl-fund ed Ctluipment
   ite ms Ihllt s hould be included.

   The Green Bay Police Department conc urs w ith this finding.

   Remedy: The City of Grccn Bay is in the process of purchasing a lIew financial soft ware system wh ich
   will inelude a fixed asset module to correct Ihis problem. 4 vendors huve submitted proposals and site
   visi ts for the ve ndors are seheduled for Septemocr/October 20 12. The City has a 2013 "Go Live" goal
   for the new software.

   The process of labeling a ll equipmen t purehased with the ARRA JAG fu nds sturted during the audi tor's
   site visils and has been completed.

3, Ens ure the G r ee n !Jay "olice I)epart m ent imple ments procedures to ensure I'1!qu ircd r eports
   I'1!ncct gr a nl ac tivit y based upon th e official a cco u nti ng reeords li nd submits revised reports that
   a ee urately refl ect gr a nt-rela ted upen ditures, induding the sub-gran tce's n pensc!, as r ecorded in
   its official accounting system.

   The Green Bay Pol ice Department concurs with this finding.

   Remedy: The Green Bay Police Department has already staned the pmetice o f submitling reports that
   reflect the expenses from the official accounting records supplied by the City of Green Bay Finance
   DcIXlrtmen t. All efforts will be ex hausted to ensure thot all future financial and Progress reports
   submitted for this grant will based on the same exact data for eac h quarter.

4. ": nsurc the Gree n Oay Police Department implemen ts procedures to ens ure required progress
   re port ~ lire submitted in a timely manner.


   The Green Bay Po lice Department concurs wi th this find ing.

   Remedy: All progress reports with the exception of the 2 late reports identified in the audit re port have
   been submitted within the required time frame. The Green Bay Po l icc Department will continue this
   practice to ensure that all future progress reports arc submitted wi thin the required time frame.

5. Ensure t he G reen Oay Po lice Depa rtm ent develo ps procedures fo r mo nitorin g and ovcrseeing s ub­
    gr antecs' gra nt IIc ti vit ies.

   The Green Oay Police Department conc urs wit h this finding.


              307 South Adams Street .:. Green Bay, WI. 54301-4582 .:. (920) 448 3200 .:. Fax (920) 448 3248
                                     Wort! WillI woo h-':I.Iw.vN.d .green·bay.wi.U$I




                                                 - 20 ­
       Remedy: The Brown County Sheri frs Department has already expended all of th ei r authorized funds
       for this grant. For all fut ure JAG grants, the Green Bay Police Department will create an establ ished
       system the sub grantee will fo llow to ensure that all purchasing and reporting guidelines are fo llowed
       per grant policies and requirements.


The Green Bay Police Department and its employees pride themselves on stri ving for perfectio n in everythi ng
we do as a department. We intend on using the fi ve findings in the audit report as an educational tool to use in
managing all current and future grants our department administers. The Green Bay Pol ice Department was the
recipient of two ARRA grants (JAG and Port Security) as part of the direct respo nse to the economic crisis our
country was going through. While these grants were very similar to' previous JAG and Port Security grants we
received, there were some differences in reporting types/requirements and the 10% purchasing variance which
we mi stakenly overl ooked but are now remedying the issues.

If there is anytlling else you need regarding follow up documentation or you would like to contact me directl y,
please do so at your convenience. 1 can be reached at 920-448-3233 or ThomasMo@greenbaywi.gov.

Sincerely,




Thoma     .M~
Chief of Poli ce


Cc.     Linda J. Taylor, USDOJ
        Rick Jurkanis, GBPD
        File




                   307 South Adams Street .:. Green Bay, WI. 54301-4582 .:. (920) 448 3200 .:. Fax (920) 448 3248
                                          World Wide Web http://www.cLgreen-bay.wi.uS/




                                                          - 21 ­
                                                                              APPENDIX IV


             OFFICE OF JUSTICE PROGRAMS RESPONSE

                                                 U.S. Department of Justice

                                                 Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




September 21, 2012


MEMORANDUM TO:               Carol S. Taraszka
                             Regional Audit Manager
                             Chicago Regional Audit Office
                             Office of the Inspector General


FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Audit of Office of Justice
                             Programs, Bureau of Justice Assistance, Edward Byrne Memorial
                             Justice Assistance Grant, Awarded to the Green Bay Police
                             Department, Green Bay, Wisconsin

This memorandum is in response to your correspondence, dated August 23, 2012, transmitting
the subject draft audit report for the Green Bay Police Department. We consider the subject
report resolved and request written acceptance of this action from your office.

The report contains five recommendations and $9,297 in questioned costs. The following is the
Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease
of review, the recommendations are restated in bold and are followed by our response.

1.     We recommend that OJP coordinate with the Green Bay Police Department to
       remedy the $9,297 in unallowable expenditures related to the purchase of equipment
       items not approved by OJP.

       OJP agrees with the recommendation. We will coordinate with the Green Bay Police
       Department to remedy the $9,297 in unallowable expenditures, related to
       the purchase of equipment items not approved by OJP, charged to grant number 2009-
       SB-B9-0711.


                                            - 22 -
2.     We recommend that OJP ensure that the Green Bay Police Department complies
       with grant requirements that require assets purchased with grant funds to be
       labeled as such in the official accountable property list, and ensure the
       Department’s official accountable property list contains all grant-funded equipment
       items that should be included.

       OJP agrees with the recommendation. We will coordinate with the Green Bay Police
       Department to obtain a copy of procedures implemented to ensure that assets purchased
       with grant funds are labeled as such in the official accountable property list; and ensure
       that the Department’s official accountable property list contains all grant-funded
       equipment items that should be included.

3.     We recommend that OJP ensure that the Green Bay Police Department implements
       procedures to ensure required reports reflect grant activity based upon the official
       accounting records and submits revised reports that accurately reflect grant-related
       expenditures, including the sub-grantee’s expenses, as recorded in its official
       accounting system.

       OJP agrees with the recommendation. We will coordinate with the Green Bay Police
       Department to obtain a copy of procedures implemented to ensure that: information
       included in grant reports is consistent with data recorded in the Police Department’s
       official accounting records; and revised reports accurately reflect grant-related
       expenditures, including the sub-grantee’s expenses, as recorded in its official accounting
       system.

4.     We recommend that OJP ensure that the Green Bay Police Department implements
       procedures to ensure required progress reports are submitted in a timely manner.

       OJP agrees with the recommendation. We will coordinate with the Green Bay Police
       Department to obtain a copy of procedures implemented to ensure that progress reports
       are submitted in a timely manner.

5.     We recommend that OJP ensure that the Green Bay Police Department develops
       procedures for monitoring and overseeing sub-grantees’ grant activities.

       OJP agrees with the recommendation. We will coordinate with the Green Bay Police
       Department to obtain a copy of procedures implemented to ensure that
       grant activities performed by sub-grantees are adequately monitored.

If you have any questions or require additional information, please contact
Jeffery A. Haley, Deputy Director, Audit and Review Division, on (202) 616-2936.


cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management



                                             - 23 -
Tracey Trautman
Acting Deputy Director for Programs
Bureau of Justice Assistance

Amanda LoCicero
Audit Liaison
Bureau of Justice Assistance

NiKisha Love-Weaver
Grant Program Specialist
Bureau of Justice Assistance

Rick Jurkanis
Business Manager
Support Services Division
Green Bay Police Department

Louise Duhamel, Ph.D.
Acting Director, Audit Liaison Group
Internal Review and Evaluation Office
Justice Management Division

OJP Executive Secretariat
Control Number 20121425




                                      - 24 -
                                                              APPENDIX V


              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

     The OIG provided a draft of this audit report to the Green Bay Police
Department and the Office of Justice Programs (OJP) for review and
comment. The Green Bay Police Department’s response is incorporated in
Appendix III of this final report; OJP’s response is incorporated as
Appendix IV. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Recommendation Number:

  1. Resolved. Both the Green Bay Police Department and OJP concurred
     with our recommendation to remedy the $9,297 in unallowable
     expenditures related to the purchase of equipment items not approved
     by OJP. OJP stated in its response that it will coordinate with the
     Green Bay Police Department to remedy the questioned costs.

     This recommendation can be closed when the $9,297 in unallowable
     expenditures related to the purchase of equipment items not approved
     by OJP have been remedied in an appropriate manner.

  2. Resolved. Both the Green Bay Police Department and OJP concurred
     with our recommendation to ensure the Green Bay Police
     Department’s complies with grant requirements that require assets
     purchased with grant funds to be labeled as such in the official
     accountable property list, and ensure the department’s official
     accountable property list contains all grant-funded equipment items
     that should be included. OJP stated in its response that it will
     coordinate with the Green Bay Police Department to obtain a copy of
     procedures implemented to correct the reported deficiency, and ensure
     that all grant-funded equipment items are reflected in the
     department’s official accountable property list.

     This recommendation can be closed when we receive a copy of the
     Green Bay Police Department’s procedures implemented to ensure that
     assets purchased with grant funds are labeled as such in the official
     accountable property list as well as a copy of the Green Bay Police
     Department’s official accountable property list that contains all
     appropriate grant-funded equipment items.




                                   - 25 -
3. Resolved. Both the Green Bay Police Department and OJP concurred
   with our recommendation to ensure the Green Bay Police Department
   implements procedures to ensure required reports reflect grant activity
   based upon the official accounting records and submits revised reports
   that accurately reflect grant-related expenditures, including the sub-
   grantee’s expenses, as recorded in its official accounting system. OJP
   stated in its response that it will coordinate with the Green Bay Police
   Department to obtain a copy of procedures implemented to correct the
   reported deficiency and to ensure that the department submits revised
   reports that accurately reflect grant activity.

   This recommendation can be closed when we receive a copy of the
   Green Bay Police Department’s procedures implemented to ensure that
   information included in grant reports is consistent with data recorded
   in the Green Bay Police Department’s official accounting records as
   well as revised reports that accurately reflect grant-related
   expenditures.

4. Resolved. Both the Green Bay Police Department and OJP concurred
   with our recommendation to ensure that the Green Bay Police
   Department implements procedures to ensure required progress
   reports are submitted in a timely manner. OJP stated in its response
   that it will coordinate with the Green Bay Police Department to obtain
   a copy of procedures implemented to correct the reported deficiency.

   This recommendation can be closed when we receive a copy of the
   Green Bay Police Department’s procedures implemented to ensure
   required progress reports are submitted in a timely manner.

5. Resolved. Both the Green Bay Police Department and OJP concurred
   with our recommendation to ensure that the Green Bay Police
   Department develops procedures for monitoring and overseeing sub-
   grantees’ grant activities. OJP stated in its response that it will
   coordinate with the Green Bay Police Department to obtain a copy of
   procedures implemented to correct the reported deficiency.

   This recommendation can be closed when we receive a copy of the
   Green Bay Police Department’s policies implemented to ensure that
   the Green Bay Police Department monitors and oversees sub-grantees’
   grant activities.




                                 - 26 -
